               OFFICE OF INSPECTOR GENERAL 




                                                          Catalyst for Improving the Environment


Attestation Report




            California Department of
            Toxic Substances Control
            Reported Outlays under
            Cooperative Agreement V99925204

            Report No. 2005-4-00099


            September 8, 2005




  This report contains findings that describe problems the Office of Inspector General (OIG) has
  identified and corrective actions the OIG recommends. The report represents the opinion of
  the OIG, and findings in this report do not necessarily represent the final EPA position. Final
  determinations on matters in this report will be made by EPA managers in accordance with
  established audit resolution procedures.
Report Contributors:	            Robert Adachi
                                 Lela Wong
                                 Clem Cantil
                                 Keith Reichard




Abbreviations

CADD         Computer Aided Design and Drafting
CFR          Code of Federal Regulations
EPA          U.S. Environmental Protection Agency
GSA          General Services Administration
OIG          Office of Inspector General
                         U.S. Environmental Protection Agency                                                2005-4-00099 

                         Office of Inspector General                                                     September 8, 2005





                         At a Glance
                                                                            Catalyst for Improving the Environment


Why We Did This                         California Department of Toxic Substances Control
Examination                             Reported Outlays under Cooperative Agreement V99925204

We conducted this examination            What We Found
to determine whether:
                                        In our opinion, with the exception of contract outlays, the outlays reported by
• The reported outlays fairly           the State present fairly, in all material respects, allowable costs incurred under
  present, in all material              the agreement. EPA has determined that the State performed the activities in
  respects, the allowable costs         the agreement’s work plan and has complied with the agreement’s deliverable
  incurred under EPA                    requirements.
  cooperative agreement
  V99925204 (agreement); and            The State’s procurement process needs improvement to ensure that contractual
• California Department of              outlays reported were allowable and that contracts were negotiated and
  Toxic Substances Control              administered in accordance with Federal regulations. Specifically, the State did
  (State) complied with                 not: (1) perform cost or price analysis, (2) negotiate profit as a separate line
  applicable laws, regulations,         item in the contract, (3) ensure that the contractors monitor their subcontracts,
  and terms of the agreement.           and (4) include all the required clauses in the contracts. The State also did not
                                        inform or require its contractors to comply with the Federal Cost Principles.
Background                              As a result, the State was unable to demonstrate that the reported outlays for
                                        contractual services were “fair and reasonable” and we questioned reported
EPA Region 9 awarded the                contract outlays of $215,946.
agreement to the State on June
24, 2002, for Superfund site             What We Recommend
assessments and Brownfields
activities. The initial award was       We recommend that the Regional Administrator, EPA Region 9:
$640,000. The agreement was
amended to reflect total project        1.	 Disallow contract outlays of $215,946 reported under the agreement.
costs of $1,340,000. The                2.	 Revoke the State’s procurement system self-certification until adequate 

agreement had a budget period               policies and procedures are in place to ensure compliance with Federal 

from July 1, 2002, to June 30,              regulations and cost principles. 

2004.                                   3.	 Review and approve all State solicitations and contracts under EPA grants
                                            and cooperative agreements, other than small purchases.
For further information,
contact our Office of                   4.	 Determine the adequacy of actions taken by the State to update its
Congressional and Public Liaison            procurement handbook, develop additional procurement policies, develop
at (202) 566-2391.                          procedures for negotiating prices, and provide adequate training on
                                            procurement and contract management.
To view the full report, click on the
following link:
                                        The State disagreed with recommendation 1 and concurred with 

www.epa.gov/oig/reports/2005/           recommendations 2 through 4.

20050908-2005-4-00099.pdf
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460




                                                                                      OFFICE OF 

                                                                                 INSPECTOR GENERAL



                                        September 8, 2005

MEMORANDUM


SUBJECT:       Attestation Report:
               California Department of Toxic Substances Control
               Reported Outlays under Cooperative Agreement V99925204
               Report No. 2005-4-00099

               Michael Rickey /s/
FROM:          Michael Rickey
               Director, Assistance Agreement Audits

TO:            Wayne Nastri
               Regional Administrator
               Region 9


As part of our effort to meet the requirements of Section 111 (k) of the Comprehensive
Environmental Response, Compensation, and Liability Act of 1980, we have examined the
outlays reported by the California Department of Toxic Substances Control (State) under
cooperative agreement number V99925204. The purpose of this examination is to determine
whether the reported outlays fairly present, in all material respect, the allowable costs incurred
under the cooperative agreement and whether the State complied with applicable laws,
regulations, and terms of the agreement. This examination also allowed us to follow-up on the
internal control and compliance issues noted in our audit report number 2003-1-00143, “Costs
Claimed on the Stringfellow Superfund Site by California Department of Toxic Substances
Control,” issued on September 30, 2003.

This attestation report contains findings that describe problems the Office of Inspector General
(OIG) has identified and corrective actions the OIG recommends. This attestation report
represents the opinion of the OIG and the findings contained in this report do not necessarily
represent the final EPA position. Final determinations on matters in this attestation report will be
made by EPA managers in accordance with established audit resolution procedures.
Accordingly, the findings described in the report are not binding upon EPA in any enforcement
proceedings brought by EPA or the Department of Justice.

We issued a draft report to the State for comment on June 30, 2005. The State submitted its
response on August 1, 2005. We have included the State’s complete response as Appendix B of
this report. An exit conference was held on August 18, 2005. Prior to the exit conference, the
State also provided documentation supporting its August 1 response. The State also provided its
justification for the use of the time-and-materials type contracts. The justification appears to be
reasonable. The State disagreed with recommendation 1 and concurred with recommendations 2
through 4.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report by January 10, 2006. If you or your staff has any questions regarding this report, please
contact me at (312) 886-3037 or Mr. Robert Adachi at (415) 947-4537.
                                     Table of Contents 

At a Glance 


Background ............................................................................................................     1


Independent Auditor’s Report ...............................................................................                2     


Schedule of Reported Outlays and Results of Examination ..............................                                      3     


            Status of Prior Audit Findings .....................................................................            4 

            Recommendations ......................................................................................          4

            Summary of State’s Response ...................................................................                 5   

            OIG Comments ...........................................................................................        6




Appendices
            A      Scope and Methodology ..................................................................                 7


            B      State’s Response to Draft Report.....................................................                    8 


            C      Distribution ........................................................................................   12 

                                     Background
Environmental Protection Agency (EPA) Region 9 awarded cooperative agreement V99925204
(agreement) to the California Department of Toxic Substances Control (State) on June 24, 2002,
under section 104 of the Comprehensive Environmental Response, Compensation, and Liability
Act. The agreement was for Superfund site assessments and Brownfields activities. The initial
award was for $640,000. The agreement was amended to reflect total project costs of
$1,340,000. The agreement had a budget period from July 1, 2002, to June 30, 2004, and did not
require cost sharing from the State. As of September 7, 2004, the date of the final Financial
Status Report, payments of $1,316,276 had been made under the agreement.

Under the agreement’s work plan, the State was required to perform 39 activities during the
period from July 1, 2002, through June 30, 2004. These activities included completing and
maintaining the preliminary assessment and site investigation tracking database, performing site
inspections and site screenings, evaluating removal site status, attending National Site
Assessment Conferences, establishing a geographic information system for well surveys, and
preparing preliminary endangerment assessments for school sites. As required under the
agreement, the State submitted performance reports to the EPA quarterly to summarize the status
of each of the activities. EPA has determined the status of activities summarized in the final
quarterly report as acceptable and in full compliance with the deliverable requirements under the
agreement.

To help the reader understand the report, we define key terms below:

   Reported Outlays:	        Program expenses or disbursements identified by the State on the
                             Financial Status Report (Standard Form 269A).

   Unallowable Costs:	       Outlays that are (1) contrary to a provision of a law, regulation,
                             agreement, or other documents governing the expenditure of funds;
                             (2) not supported by adequate documentation; or (3) not approved
                             by a responsible Agency official.




                                                1

                      Independent Auditor’s Report
We have examined the total outlays reported by the California Department of Toxic Substances
Control (State) under EPA cooperative agreement V99925204 (agreement). Total outlays of
$1,316,276 were reported in the final Financial Status Report, dated September 7, 2004, for the
period July 1, 2002, through June 30, 2004.

The State certified that the Federal outlays reported on the Financial Status Report, Standard
Form 269A, were correct and for the purposes set forth in the agreements. Our responsibility
was to express an opinion on the reported outlays based on our examination.

We conducted our examination in accordance with the Government Auditing Standards, issued
by the Comptroller General of the United States, and the attestation standards established for the
United States by the American Institute of Certified Public Accountants. We examined, on a test
basis, evidence supporting the reported outlays, and performed such other procedures as we
considered necessary in the circumstances (see Appendix A for details). We believe that our
examination provides a reasonable basis for our opinion.

We questioned $215,946 of the reported outlays for contracts awarded under the agreement
because the State did not negotiate and administer the contracts in accordance with Federal
regulations. Please refer to the Schedule of Reported Outlays and Results of Examination section
of this report for details.

In our opinion, with the exception of the contract outlays discussed in the preceding paragraph,
the outlays reported in the Financial Status Reports present fairly, in all material respects, the
allowable outlays incurred in accordance with the terms and conditions of the agreements and
applicable laws and regulations.



Keith Reichard /s/
Keith Reichard
Office of Inspector General
Environmental Protection Agency
April 29, 2005




                                                 2

                     Schedule of Reported Outlays and
                         Results of Examination


                                               Reported Federal           Questioned
    Cost Element                                   Outlays                 Outlays        Note

    Personnel                                        $ 528,514                    $0
    Travel                                                 4,856                   0
    Contractual                                          215,946            $215,946        1
    Supplies/Other                                          163                    0
    Indirect Costs                                       566,797                   0
    Total                                           $1,316,276              $215,946

Note 1: 	         We questioned reported outlays of $215,946 because the State did not procure its
                  architectural/engineering (A/E) contractual services in accordance with Title 40
                  Code of Federal Regulations (CFR), Part 35, Subpart O, and did not require its
                  contractors to comply with the applicable Federal regulations. The State awarded
                  three time-and-materials contracts to the following contractors:


                               Contractor       Total Outlay       Competitively Bid
                       URS                          $84,313               No
                       Tetra Tech                    62,647               No
                       Accord Engineering            68,986              Yes
                       Total                      $215,946

                  During the award of the three contracts, the State did not: (1) perform a cost or
                  price analysis as required by Title 40 CFR 35.6585(a) (1); (2) negotiate profit as a
                  separate line item as required by Title 40 CFR 35.6585(b); (3) ensure that
                  contracts awarded by its contractors complied with Title 40 CFR 35.6610, and
                  (4) include all the contract clauses required by Federal statues as required by Title
                  40 CFR 31.36(a). The State also did not inform or require its contractors to
                  comply with the Contract Cost Principles and Procedures of Title 48 CFR Part 31
                  as required by Title 40 CFR 35.6550 (b)(4), 35.6270(a)(2), and 31.22(b).
                  Consequently, the State was unable to demonstrate that the reported outlays for
                  contractual services were “fair and reasonable” as required by Title 40 CFR
                  35.6565(c) (5).




                                                    3

                 The conditions explained above were due to:

                 •	 The lack of sufficient guidance for contract price negotiation and compliance
                    with Federal regulations in California’s State-wide procurement policies.
                    Therefore, State personnel were not aware of the Federal procurement
                    regulations.

                 •	 The State did not have procedures to ensure that contract outlays reported are
                    allowable under Title 40 CFR 31.22 and in compliance with 48 CFR Part 31.

                 •	 The State’s procurement handbook did not include procedures to ensure
                    compliance with Federal procurement regulations.

                 •	 The State did not provide training to staff regarding the nature of the various
                    acceptable contract types and their procurement requirements.

Status of Prior Audit Findings
In a prior audit1 of the Stringfellow Superfund site located in Riverside County, California, we
identified two reportable conditions and one noncompliance area. Specifically, the State:
(1) needed to improve the accuracy of their Financial Status Report and ensure that only eligible
costs were claimed, (2) ensure that the costs claimed took into account any special cooperative
agreement conditions, and (3) identify the contract reimbursement mechanism to ensure that
prohibitive contracts were not used. Based on our examination, these prior findings have been
corrected.

Recommendations
We recommend that the Regional Administrator, EPA Region 9:

        1.	 Disallow unsupported contractual outlays of $215,946 reported under the agreement.

        2.	 Revoke the State’s procurement system self-certification until adequate policies and
            procedures are in place to ensure compliance with Federal procurement regulations
            and cost principles.

        3.	 Review and approve all State solicitations and contracts under EPA grants and
            cooperative agreements, other than small purchases, until the State’s procurement
            system self-certification can be reinstated.




1
 Report No. 2003-1-00143, Costs Claimed on the Stringfellow Superfund Site by California Department of Toxic
Substances Control, issued on September 30, 2003.


                                                      4

       4.	 Determine the adequacy of the State’s actions to:

           a.	 Update its procurement handbook to ensure compliance with all Federal
               regulations and cost principles.

           b.	 Develop procurement policies to supplement the California State-wide policies.

           c.	 Develop procedures for the negotiation of fair and reasonable contract prices.

           d.	 Provide adequate training to staff involved in procurement and contract
               management on Federal procurement regulations and cost principles.

Summary of State’s Response
The State concurred with recommendations 2 through 4. The State explained that its
procurement system has been substantially revised since the process was reviewed by the
auditor. The State has put policies and procedures in place that comply with all Federal
procurement regulations and cost principles. The State has also updated its procurement manuals
and is scheduling statewide contract and purchasing training in the fall. The State said it looks
forward to EPA’s expeditious review of its procurement system so that self-certification can be
reinstated soon. Until such time that self-certification is approved, the State welcomes and
invites EPA to review its EPA grant solicitations and contracts.

The State did not concur with recommendation 1. While the State agreed that the Federal
procurement regulations were not met at the time of contract award, it believes that the $215,946
contractual outlay should be allowed because the contracts were awarded in compliance with the
State’s regulations and the intent of the applicable Federal regulations. Also, the State believes
that the documentation provided in response to the draft have demonstrated that the contract
prices are fair and reasonable.

In its response, the State provided comparisons of rates used in the URS and Tetra Tech
contracts to the contractors’ Federal contract rates published in the existing General Services
Administration (GSA) Supply Schedules. The State believes these rate comparisons have
demonstrated that the prices of the contracts funded by the cooperative agreement are fair and
reasonable. The State believes that it has satisfied the cost analysis requirement. State officials
said they believed this because the details on the labor buildup used in the State’s contracts have
been audited by the contractor’s internal auditor and the higher rates reflected in the GSA Supply
Schedules have been audited by Federal auditors.

The State explained that the Accord Engineering contract was competitively bid using the State’s
Small Business process, which met the EPA’s Disadvantaged Business requirements under Title
40 CFR 35.6610(c). The State believes that since there was adequate price competition to arrive
at a fair and reasonable price as defined in Title 40 CFR 35.6585(a) (1), cost and profit analysis
was not needed.




                                                 5

OIG Comments
The State’s concurrence with recommendations 2 through 4 is noted. Based on the State’s
response, we have reworded recommendation 4 to emphasizes the need for EPA Region 9 to
determine the adequacy of the State’s actions

The OIG maintains its position that the contractual outlay of $215,946 should be disallowed.
The State has not adequately demonstrated that the contract prices are fair and reasonable.

In connection with the URS and Tetra Tech contracts, the State has not demonstrated the validity
of the rate comparisons. The GSA rates and contract rates the State used in the comparison were
not always from the same labor classifications. For example, the State compared the contract
rate for Senior Risk Manager to the GSA rate for Subject Matter Expert. However, the State has
not provided documentation to show that these two labor classification are substantially the same
in qualifications and responsibilities. In another comparison, the State used the GSA rate for
either Senior Technician or Senior Engineer to show that it was higher than the contract rate for
Computer Aided Design and Drafting (CADD) Technician. However, there was a Staff CADD
rate and a Senior CADD rate in the same GSA schedule, both of which were lower than the
contract rate for CADD Technician. We are unable to determine whether the correct rates were
used in the comparisons without additional details. The State has also not shown whether the
GSA rates and contract rates were for the same geographical areas since both of these contractors
have regional-specific rates.

In connection with the Accord Engineering contract, we believe that the State is required to
prepare a cost analysis. Under Title 40 CFR 35.6585(a),

       …a cost analysis is not required when adequate price competition exists and the recipient
       can establish price reasonableness. The recipient must base its determination of price
       reasonableness on a catalog or market price of a commercial product sold in substantial
       quantities to the general public, or on prices set by law or regulation.

The State may have demonstrated adequate price competition; however it has not shown price
reasonableness by catalog price, market price, or price established by law or regulations as
required under Title 40 CFR 35.6585(a).

During the exit conference, the State mentioned that all subcontracts awarded by its contractors
were under $25,000. As a result, the State believed that the requirements of Title 40 CFR
35.6610 did not apply. The State has, however, included the subcontract requirements of Title
40 CFR 35.6610 in all Federally funded agreements awarded since May 2005.

OIG believes that the State must comply with the requirements of Title 40 CFR 35.6610 in
monitoring subcontracts awarded by its contractors. The $25,000 threshold applies to the cost
and price analysis required under Title 40 CFR 35.6610(g) and 35.6585. The remaining
requirements under Title 40 CFR 35.6610 apply to all subcontracts, regardless of value.




                                                6

                                                                                    Appendix A

                           Scope and Methodology
We performed our examination in accordance with the Government Auditing Standards, issued
by the Comptroller General of the United States, and the attestation standards established by the
American Institute of Certified Public Accountants. We also followed the guidelines and
procedures established in the “Office of Inspector General Project Management Handbook,”
dated January 14, 2005.

We conducted this examination to express an opinion on the reported outlays, and determine
whether the State complied with all applicable laws and regulations, as well as any special
requirements under the agreement. We conducted our field work from November 29, 2004,
through April 29, 2005.

In conducting our examination, we performed the following procedures:

   •	 We interviewed EPA personnel and reviewed grant and project files to obtain background
      information on the State and the agreement.

   •	 We interviewed State personnel to obtain an understanding of the accounting system and
      the applicable internal controls as they relate to the reported outlays.

   •	 We reviewed and followed up on prior audit findings and recommendations.

   •	 We reviewed the most recent single audit report to identify issues which may impact our
      examination.

   •	 We reviewed the State’s internal controls specifically related to our objectives.

   •	 We performed tests of the internal controls to determine whether they were in place and
      operating effectively.

   •	 We examined the State’s compliance with Office of Management and Budget Circular
      A-87, Title 40 CFR Part 31 and Part 35 Subpart O, and the terms and conditions of the
      agreements.

   •	 We examined the reported outlays on a test basis to determine whether the outlays were
      adequately supported and eligible for reimbursement under the terms and conditions of
      the agreements and Federal regulations and cost principles. All of contractual outlays
      were tested. Statistical samples were performed on the remaining outlays based on a
      tolerable error rate of 10 percent.

   •	 We verified that the State performed all tasks and provided all deliverables required
      under the agreement.



                                                7

                                                                                     Appendix B

                             State’s Response to Draft Report




                             Department of Toxic Substances Control
                                                1001 “I” Street                           Arnold Schwarzenegger
Alan C. Lloyd, Ph.D.                                                                             Governor
 Agency Secretary                                P.O. Box 806
     Cal/EPA                            Sacramento, California 95812-0806


          Mr. Michael Rickey, Director 

          Assistance Agreement Audits 

          United States Environmental Protection Agency 

          1200 Pennsylvania Avenue, N.W. 

          Washington, D. C. 20460-0001 


          COOPERATIVE AGREEMENT V99925204 – DEPARTMENT OF TOXIC 

          SUBSTANCES CONTOL RESPONSE TO DRAFT REPORT ON THE AUDIT 


          Dear Mr. Rickey:

          Thank you for the opportunity to respond to the draft report conducted by the U.S.
          Environmental Protection Agency (EPA), Office of the Inspector General on the audit of
          the costs claimed on Cooperative Agreement V99925204. We believe the completion
          of the audit and these recommendations have been invaluable in assisting our staff in
          understanding and applying the Federal Contracting requirements associated with
          contracts funded by EPA grants.

          We have prepared our responses to the specific recommendations identified in the
          report. We believe that the actual costs incurred in the contracts funded by the
          Cooperative Agreement met the intent of the applicable Federal regulations and cost
          principles as demonstrated when the contract rates were subsequently broken down
          following Federal requirements and compared to existing Federal Contracts with the
          same Contractors and California’s Certified Small Business competitive bid process.

          RESPONSES TO RECOMMENDATIONS

          Recommendation 1

          “Disallow unsupported contractual outlays of $215,946 reported under the agreement.”

          Response: We believe that the $215,946 contractual outlay should be allowed
          because the contracts in question were awarded in compliance with Department of
          Toxic Substances Control (DTSC) and State of California Architectural and Engineering
          contracting regulations and competitively bid contracting regulations and the intent of


                                                      8

Mr. Michael Rickey

Page 2


applicable Federal regulations and cost pricing. When DTSC’s contract rates/costs for
the services rendered were compared to Federal contract rates published in existing
URS Corporation and Tetra Tech GSA Schedules, DTSC’s contract rates were lower. It
is our position that while the required Federal process/documentation was not in place
when the contracts were let, DTSC has demonstrated that the contractual outlays were
appropriately expended to provide the agreed upon work product funded by the grant.
Upon becoming aware of the Federal procurement regulations, DTSC prepared price
comparisons, justified the award of time and material contracts, shown profit as a
separate line item, ensured that contracts awarded by its contractors complied with
requirements, and demonstrated that the contract clauses required by Federal statutes
were adhered to such that the contractual outlays were fair and reasonable.

The third contract with Accord Engineering was competitively bid under California’s
Certified Small Business Contracting authority and awarded to the lowest responsible
bidder. It is our position that this competitive bid complies with the intent of 40 CFA
35.6585. When the competitively bid rates were subsequently presented in a format
following the Federal regulations and cost pricing requirements and compared to
comparable existing Federal GSA rates, the competitively bid rates were lower.

The documentation supporting our position that the $215,946 contractual outlay should
be allowed is available for your review. We would appreciate the opportunity to go over
the material with you at your earliest convenience.

Recommendation 2

"Revoke the State’s procurement system self-certification until adequate policies and
procedures are in place to ensure compliance with Federal procurement regulations and
cost principles."

Response: DTSC’s procurement system has been substantially revised since the
process was reviewed by the auditors earlier this year. The Contracts and Business
Management Branch (CBMB) has put policies and procedures in place that comply with
all Federal procurement regulations and cost principles and would be pleased to have
the process we have put in place reviewed for compliance.

Recommendation 3

“Review and approve all State solicitations and contracts under EPA grants and
cooperative agreements, other than small purchases, until the State’s procurement
system self-certification can be reinstated.”




                                            9

Mr. Michael Rickey

Page 3


Response: DTSC looks forward to EPA’s expeditious review of our procurement
system so that self-certification can be reinstated soon. Until such time that
self-certification is approved, DTSC welcomes and invites EPA to review its EPA grant
solicitations and contracts. A Federal Grant team composed of program, Contracting,
Accounting and Management staff was formed to examine DTSC’s grant process and
procedures and to take corrective action to assure that all grant related activities are in
compliance with all applicable regulations, policies and procedures. The result of this
workgroup has been the development of procedures that include all potentially affected
disciplines in the grant process beginning at the point of grant application. This assures
that should there be contracted services and/or purchases of goods or commodities
included in the grant application, the appropriate staff are involved from the beginning
and can advise program staff on what must be done to comply with Federal
procurement regulations and cost principles. This will provide the program grant
administrators and program contract managers with the information needed to
appropriately set its timeline to allow for time to conduct a federally based solicitation.

Recommendation 4

"Require the State to:

   •	 Upgrade its procurement handbook to ensure compliance with all Federal 

      regulations and cost principles. 

   •	 Develop procurement policies to supplement the California State-wide policies.
   •	 Develop procedures for the negotiation of fair and reasonable contract prices.
   •	 Provide adequate training to staff involved in procurement and contract 

      management on Federal procurement regulations and cost principles. 


Response: Since May 2005, CBMB has had policies and procedures in place that
require all solicitation endeavors that could possibly be funded by EPA grants be
advertised in a manner that clearly indicates that the Federal procurement regulations
and cost principles will apply in addition to the State contracting requirements. We have
changed procedures and improved our coordination efforts among program sections.
As a part of this process, our procurement desk manuals and training materials have
been updated to include all the Federal requirements. CBMB has refined its contract
negotiation policies and procedures to provide for more structure and more direct
involvement of CBMB staff in the negotiation. This procedural change gives CBMB
control of the amount and timing of contact between program staff and contractor staff
and will assure that program negotiators are knowledgable about and comply with
acceptable practices. This approach assures that there is adequate separation of
duties between program staff and contractor staff.




                                            10

Mr. Michael Rickey

Page 4


Statewide contract and purchasing training is scheduled to begin in the fall after the
vacation season has ended. The training manual and related materials have been
developed to provide detailed training on when and how to apply both the State and
Federal procurement regulations and cost principles. As a part of the training, hands on
contracting scenarios are being developed to afford the trainee with opportunities to
apply the training principles and better understand when and how to apply appropriate
contracting policies and procedures.

I look forward to having your staff review our current policies and procedures and
documentation which demonstrates that the $215,946 contractual outlays should be
allowed.

If you have any questions concerning our response, please feel free to contact me at
(916) 445-7076.

Sincerely,


Harriet Kiyan, Chief
Financial Operations
Department of Toxic Substances Control

cc: 	   Wayne Nastri
        Regional Administrator
        EPA Region IX
        75 Hawthorne Street, 18th floor
        San Francisco, California 94105

        Robert Adachi        

        Assignment Coordinator        

        EPA-OIG 

        75 Hawthorne Street, 7th Floor 

        San Francisco, California 94105-3901 


        Richard J. Hennecke

        Audit Coordinator       

        75 Hawthorne Street, PMD - 4 

        San Francisco, California 94105 


        Timothy J. Swickard
        Director
        Department of Toxic Substances Control


                                            11

                                                   Appendix C

                                   Distribution


Region 9

      Regional Administrator
      Audit Coordinator

Headquarters Office

      Director, Grants Administration Division
      Director, Office of Grants and Debarment
      Agency Followup Official (the CFO)
      Agency Audit Followup Coordinator
      Audit Followup Coordinator (GAD)

Office of Inspector General

      Inspector General




                                            12

